<html>
<title> - THEIR DAUGHTERS' APPEAL TO BEIJING: ``LET OUR FATHERS GO!''</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  THEIR DAUGHTERS' APPEAL TO BEIJING: 
                        ``LET OUR FATHERS GO!''

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 5, 2013

                               __________

                           Serial No. 113-140

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
85-791                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="096e7966496a7c7a7d616c6579276a666427">[email&#160;protected]</a>  

                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Lisa Peng, daughter of Peng Ming.............................     5
Ms. Grace Ge Geng, daughter of Gao Zhisheng......................     9
Ms. Ti-Anna Wang, daughter of Wang Bingzhang.....................    14
Ms. Bridgette Chen, daughter of Liu Xian Bin.....................    18
Ms. Danielle Wang, daughter of Wang Zhiwen.......................    20
Pastor Bob Fu, founder and president, ChinaAid Association.......    30
Mr. Chen Guangfu, brother of Chen Guangcheng and father of Chen 
  Kegui..........................................................    44
Devra Marcus, M.D., physician and activist.......................    53

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Lisa Peng: Prepared statement................................     7
Ms. Grace Ge Geng: Prepared statement............................    11
Ms. Ti-Anna Wang: Prepared statement.............................    16
Ms. Bridgette Chen: Prepared statement...........................    19
Ms. Danielle Wang: Prepared statement............................    21
Pastor Bob Fu: Prepared statement................................    34
Mr. Chen Guangfu: Prepared statement.............................    47
Devra Marcus, M.D.: Prepared statement...........................    56

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69


      THEIR DAUGHTERS' APPEAL TO BEIJING: ``LET OUR FATHERS GO!''

                              ----------                              


                       THURSDAY, DECEMBER 5, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 11 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order and good morning 
to everyone. When China bullies, incarcerates, tortures, and 
even executes a prisoner of conscience, their entire family and 
friends suffer an excruciating sense of loss, bewilderment, 
emotional pain, and agony. Often members of the family are 
themselves subjected to interrogation, mistreatment, and house 
arrest in order to amplify the hurt.
    In a very real sense, everyone close to a prisoner of 
conscience goes to jail and lives a seemingly unending 
nightmare. Every day, family and friends are left to wonder 
what terrible abuse awaits Dad or Mom or a brother, sister or 
child. Every day, the tears flow.
    The people who rule China today with an iron fist resort to 
these ugly methods of control in the mistaken assumption that 
the people, the masses, can't be trusted to govern themselves, 
practice their faith as they see fit, or create a family. 
China's barbaric one-child-per-couple policy, for example, in 
effect since 1979, continues despite some of the hyperbole 
about reform, unabated to make brothers and sisters illegal and 
relies on ruinous fines and penalties, forced abortion, and 
coercive sterilization, crimes against humanity, to achieve its 
ends. And all ``news'' content and commentary in cyberspace, on 
TV, radio or in print media in China today continues to be 
strictly controlled and manipulated by the Communist Party.
    The Chinese Government today is in the business of breaking 
minds, bodies, and hearts. The repression is systematic, 
pervasive, unrelenting, and unnecessary. That is because the 
people of China love their nation and they do deserve better 
treatment. Even heroic persons like Chen Guangcheng, who is 
with us today, and his dear wife who is equally brave; Wei 
Jingsheng, Rebiya Kadeer, Bishop Su of Baoding, Harry Wu and 
countless others who have demonstrated by their extraordinary 
perseverance and indomitable will to advance bedrock human 
rights principles regardless of cost, carry the indelible scars 
of unspeakable mistreatment.
    The people who rule China today employ these ugly methods 
of control to prop up their own political power and increase 
their personal wealth. China, a great nation, deserves better.
    Far too many of us who live in freedom often fail to exert 
ourselves in a meaningful way to assist prisoners of conscience 
and their loved ones, in China, and frankly, elsewhere. Far too 
many of us fail to empathize with their plight or to see what 
is just below the facade of the purported harmonious society.
    How can it be that the 2010 Nobel Peace Prize winner Liu 
Xiaobo remains in prison while his wife, Liu Xia, is forced to 
endure the extreme isolation of house arrest and is now 
reportedly experiencing severe depression?
    Perhaps we are uninformed or too busy or prefer to look 
askance. However, with so much preventable suffering being 
endured by so many prisoners of conscience and their families 
in China today, the time has surely come for a more serious and 
sustained defense of these heroic individuals and their noble 
causes. All of us, including the Chinese Government, have a 
duty to protect.
    Today, we will hear the cries for release and freedom from 
five remarkable daughters on behalf of their wrongly imprisoned 
fathers and from a dad on behalf of his unjustly jailed son. 
This is an appeal directly to Beijing. This is an appeal from 
five young women on behalf of their fathers who they miss so 
deeply. We hope that Beijing will be listening.
    We will also hear expert testimony from a previously 
incarcerated Christian pastor who cares deeply for the 
vulnerable and at risk, and another human rights activist who 
was who was detained in China after an attempt to visit a 
dissident. I will provide the introductions as we go to our 
panels.
    I would now like to yield to my good friend and colleague, 
Mr. Pittenger, for any comments that he might have.
    Mr. Pittenger. Thank you, Chairman Smith, for inviting me 
and allowing me to make an opening statement. I thank you for 
the over 30 years, that I have known you, that you have been 
faithful to the commitment of those who are persecuted for 
their religious faith, for their freedoms of conscience, and 
for your commitment to bring liberty to these individuals.
    I want to thank you for the leadership that you are 
bringing to this discussion which is so important today for all 
Americans to know and to hear, and as well as for Beijing to 
hear this important message.
    I would like to thank these brave witnesses, those who I 
met earlier today, for appearing before us and I look forward 
to hearing your testimony.
    The issues of human rights, religious liberties, and the 
rule of law in China have been of great importance to me my 
entire adult life. These are issues that I have been dedicated 
to since I graduated from college and with my 10 years of 
service with Campus Crusade for Christ serving as the president 
of that organization, Dr. Bill Bright, we spent much time 
overseas and are aware very much of the plight of the believers 
in China and various parts of the world.
    The United States must remain committed to monitoring the 
continued violation of the rule of law by the Chinese and stand 
with those committed to ending the persecution of Chinese 
citizens for practicing their religious beliefs, for freedoms 
of conscience, and striving for democracy.
    As a Member of Congress, I take an active role on these 
issues as a commissioner on the Congressional-Executive 
Commission on China. America must be the unwavering light for 
religious freedom, freedoms of conscience, and political 
freedom throughout the world. Our stance on issues relating to 
these freedoms must be resounding.
    As we bring light onto China's appalling record of human 
rights violations and persecutions of believers of all faiths, 
we must call on them to release their political and freedoms of 
conscience prisoners. China signed the International Covenant 
on Civil and Political Rights in 1998, but 15 years later, they 
have still not ratified the covenant. The time is now for China 
to take real meaningful steps toward reform.
    Thank you, Mr. Chairman, for the privilege of being here 
and I yield back.
    Mr. Smith. Thank you very much, Mr. Pittenger, and for your 
leadership on religious freedom issues and issues related to 
human rights in China especially.
    Mr. Pittenger. Yes, sir.
    Mr. Smith. I would like to now welcome our very 
distinguished panel of five daughters to the witness table and 
I will introduce and if they could come and then make their 
presentations.
    We will begin first with Lisa Peng, a daughter of Peng 
Ming. Lisa's father, Peng Ming, founder of China Development 
Federation was framed by the Chinese Communists in 1999 and 
imprisoned for 1\1/2\ years. When he was released from the 
labor camp, Mr. Peng fled to Thailand and arrived in the United 
States in 2001. There, he founded China Federal Development 
Committee. In 2004, Peng was trapped by Chinese special agents 
and kidnapped to China. In 2005, he was sentenced to life in 
prison on the false charge of organizing and leading a 
terrorist organization. Lisa Peng, his 17-year-old daughter, 
our witness, was born in Beijing and suffered doubly as a 
second child by being denied official, legal recognition. Her 
family fled political persecution in 2000 and was accepted by 
the United States as a U.N. refugee in 2001.
    Lisa is currently a senior at Laurel School in Cleveland, 
Ohio. She is the principal keyboardist of the Cleveland Youth 
Orchestra, and was a featured high school Lincoln-Douglas 
Debater at the City Club of Cleveland, Ohio.
    Lisa, thank you, and welcome.
    We will then hear from Grace Ge Geng, who is the 20-year-
old daughter of imprisoned Chinese human rights lawyer, Gao 
Zhisheng, was convicted of inciting subversion of state power 
and sentenced to a 3-year prison term. After being arrested and 
released several times from 2006 to 2010, Gao Zhisheng was 
accused of violating the terms of his parole and sent back to 
jail to serve his 3-year term. Many times during this period 
Gao disappeared. He is currently incarcerated in a prison in 
far western Xinjiang.
    During years of her father's disappearance and torture 
under Chinese Government persecution, Grace, along with her 
mom, Geng He, also experienced tremendous harassment, 
intimidation, and beatings. She was deprived of her educational 
opportunity as well. Unable to live a normal life anywhere, 
Grace, her mom, and her little brother, Peter Gao, fled to the 
United States before Gao's 2009 re-arrest and re-disappearance. 
Grace now lives in California and is a sophomore in De Anza 
College in California. Welcome, Grace.
    We will then hear from Ti-Anna Wang, daughter of Wang 
Bingzhang. She was born in 1989 and was named to commemorate 
the victims of the Tiananmen Square massacre. Soon after her 
13th birthday, her father, a veteran democracy activist 
disappeared. After 6 months of secret custody, the Chinese 
Government announced Wang Bingzhang's arrest. He was 
subsequently sentenced to life imprisonment on false charges of 
espionage and terrorism. Ti-Anna has spent much of her time and 
energy working for her father's freedom. This journey has taken 
her around the world in a process of discovery of the ideals 
that her name embodies and efforts have been fictionalized into 
a book of young adult fiction titled ``Nine Days'' by Fred 
Hiatt, which I encourage people to read. It is a wonderful 
book. I originally got it from the Library of Congress when it 
was published and I thank him for bringing light to many of the 
issues here, but especially to Ti-Anna.
    Ti-Anna graduated from McGill University with a degree in 
East Asian Studies and recently spent a year studying Mandarin 
in Taipei. Currently, she is advocating full-time for her 
father's release.
    We will then hear from Bridgette Chen. Many of us know that 
Bridgette's dad, Liu Xianbin, who used the pen name Wan 
Xianming. He was one of the original signers of Charter 08 and 
participated in the 1989 Tiananmen Square protest. Liu was 
first arrested in 1991 and held in Beijing's infamous Qiugcheng 
Prison. There he served 2\1/2\ years for so-called ``counter-
revolutionary incitement.'' After being released, Liu was 
sentenced again to a 13-year prison term for ``inciting 
subversion of state power.'' After his release, he was detained 
in June 2010 and then sentenced to a 10-year prison term in 
March 2011, again for ``inciting subversion of state power,'' 
whatever that is.
    Bridgette's father has been in prison for almost all of her 
life. In 2011, after the Chinese Government refused to give 
Bridgette's mother a passport, Bridgette fled China and arrived 
alone in the United States. Now just 16, Bridgette will speak 
up for her dad and for her family as a witness.
    Next, we will hear from Danielle Wang, on behalf of her 
father, Wang Zhiwen, a PRC Ministry of Railways engineer who 
became a Falun Gong practitioner in 1992. On July 20, 1999, 
Wang was seized from his bed by police and taken away. This was 
the same day the Chinese Communist Party began its crackdown on 
the Falun Gong. On December 26, 1999, Wang was sentenced to 16 
years in prison. The sentencing trial, in which Wang was one of 
the four defendants, was nationally broadcast and it was clear 
to viewers that defendants had been physically abused. The four 
were convicted of organizing and using a heretical organization 
that caused death, another big lie, and illegally obtaining 
state secrets.
    Wang Zhiwen's daughter, Danielle, is a U.S. citizen. Since 
her father's arrest, she has been working tirelessly to call 
for his release through public events, hunger strikes, sit-ins 
at Chinese consulates, and speaking out at various events 
around the world. Danielle has not been able to get back to 
China since she arrived in the U.S. in 1998. She hasn't been 
able to speak with her father since July 1999. It is her hope 
that one day soon she can be reunited with her mom and dad as 
they rebuild their lives together.
    Thank you, ladies, for your bravery, your courage, your 
extraordinary love which has been ongoing for so many years. 
Frankly, we are all moved by your loss, which God willing, will 
be turned into a release. And when you speak today, know that 
you are speaking right to the Government of China because my 
hope and prayer is that they will be listening. If we can begin 
now.

       STATEMENT OF MS. LISA PENG, DAUGHTER OF PENG MING

    Ms. Peng. I am Lisa Peng, daughter of political dissident 
Mr. Peng Ming. I would first like to thank you for reaffirming 
the universal values of freedom, democracy, and justice for my 
father, and other dissidents like him. I know that my father 
would be very grateful for your efforts to revive his mission.
    My father, Mr. Peng Ming, is an environmentalist, an 
economist, and a human rights activist. He is the author of The 
Fourth Landmark, a book on China's economic and political 
growth that was sponsored by the Ford Foundation. He was also 
the founder and president of China Development Union, an 
organization which sponsored think tanks that gave his fellow 
Chinese citizens the opportunity to discuss highly censored 
topics like freedom, democracy, and justice. As a result of his 
political activism, in 1999, my father was sentenced to 18 
months of ``reeducation through labor'' camp. At the time, I 
was 2 years old. Upon his release, my father was faced with the 
possibility of a second arrest, and so my family fled from 
political persecution in China to the United States as U.N. 
refugees in 2001. But 18 months of labor camp did not stop my 
father from continuing to stand up for human rights. In 2004, 
when I was 8 years old, my father went to Thailand to establish 
a safe haven for persecuted refugees like himself. There, he 
was lured by eight Chinese secret police to the border of 
Thailand and Burma, where he was kidnapped at gunpoint and 
brought back to China, the country that had persecuted him in 
1999, the country that now sentenced him to life in prison.
    The United Nations Working Group for Arbitrary Detention 
has determined that deprivation of my father's liberty is 
arbitrary and is in contravention of articles 19 and 20 of the 
Universal Declaration of Human Rights. Furthermore, my father 
is a U.S.-based dissident with U.N. refugee status who escaped 
political persecution in China. Therefore, his kidnapping is in 
violation of the principle of non-refoulment, which forbids the 
return of a victim of persecution to their persecutor. My 
father has also been arbitrarily deprived of his right to due 
process, as he was denied access to a lawyer and to a jury of 
his peers.
    Although my father has been denied the exercise of his 
right to freedom of expression, he continues to exercise 
physically and mentally. Despite nearly 10 years in prison 
suffering heart attacks, arthritis, malnutrition, and kidney 
stones with no medical care, my father still persists and 
remains hopeful. It is this hope that my father has instilled 
in me despite the thousands of miles that have separated him 
from nearly a decade of my life, a decade during which I have 
been privileged to receive an American education and learn 
about freedom, democracy, and justice, but a decade during 
which my father has remained imprisoned for fighting to secure 
those very same values.
    As an American citizen, I cannot merely stand by and 
tacitly approve as these fundamental freedoms are undermined. 
It is Congress' unwavering dedication to upholding those values 
and unrelenting efforts to free prisoners of conscience that 
give me hope for the future, for the possibility of telling my 
father in person how much we have all cared about his health 
and his dream for China's future. I hope that my father will 
first and foremost be given proper medical attention and 
visitation rights, and ultimately I seek his release.
    I join with my fellow sisters here today to request that 
Vice President Biden ask Chinese leaders to release our 
fathers, and to request an Oval Office meeting with President 
Obama to share our stories. I know that my dream to be reunited 
with my father and my father's dream for his country can come 
true with your support, persistence, and affirmation of the 
universal and fundamental values of our country: Freedom, 
democracy, and justice.
    Thank you very much.
    [The prepared statement of Ms. Peng follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you so very much for your testimony. We 
have been joined by Congressman Mark Meadows.
    Mr. Meadows, and then we will go to Ms. Geng.
    Mr. Meadows. I would love to hear from you. I will make one 
brief statement because your testimony right now just spoke to 
that is that this is a story that needs to continue to be told. 
The chairman has dedicated his life to making sure that it is 
heard. I am privileged and honored to be part of the support to 
do just that. We will not stop until families have been 
reunited and that truly that this atrocity is taken from the 
face of not only your country, but many countries this world.
    There is William Wilberforce, who fought for many years to 
end slavery, and today we look out and we see a different kind 
of slavery that is happening. So let us continue on in the 
effort of the William Wilberforces of the world and I just 
applaud you for being here and I thank the chairman for his 
dedication. I yield.
    Mr. Smith. Mr. Meadows, thank you very much for your 
comments and for your leadership as well. I would like to now 
go to Ms. Geng.

    STATEMENT OF MS. GRACE GE GENG, DAUGHTER OF GAO ZHISHENG

    Ms. Geng. Dear honorable friends, I am thankful for you 
giving me this opportunity at this hearing so I can speak up 
for my dad, human rights lawyer Gao Zhisheng. I am very 
grateful for the U.S. Congress for caring about my father's 
case. I am Attorney Gao's daughter, Grace. I was born in a 
happy, harmonious family, with Mom and Dad's loving care, and 
relatives and friends around. I had been happy and never felt 
lonely. But at the age of 13, my life has turned upside down. 
On October 15, 2006, policemen kidnapped my father at my aunt's 
home in Shandong Province, because of my father's taking up and 
investigating the cases of the persecuted faith groups. On the 
very same day, a group of policemen forcibly broke into my 
house at Beijing. Since then, six to seven policemen have been 
stationed at my house every day. There has been house arrest 
for me, my mom, and young brother with surveillance 24 hours a 
day and 7 days a week, including watching over our sleep and 
even going to our bathroom. In order to monitor us tightly, 
they didn't allow me and my 3-year-old kindergarten brother to 
go to school. Under my mom's death protest by turning on the 
gas on the stove, the policemen finally agreed to our rights of 
education, but still under the severe surveillance of 
policemen.
    I had to ride in the police car to school every day. There 
were six or seven policemen accompanying me to school. They 
always abusively insulted my father in the police car. One day 
on the way to school, there were two people talking along the 
roadside and one policeman pointed to them and said, ``Aren't 
they Gao Zhisheng and Hu Jia chatting?'' Another policeman 
followed-up immediately and said that ``Yes, they are gay 
friends,'' and then they all laughed weirdly. That's how I 
started my day of school each day. Policemen went in and sat 
behind me in the classroom in each class, including music 
course. The severe surveillance was applied to my toileting, 
too. They went in the restroom with me and did not let me close 
the door. One of the most annoying things is that my teacher 
once said in front of the whole class: ``None of you can bring 
cell phone to school, if Grace uses your cell phone, you will 
face serious political charges.'' Also, my computer class in 
the school was cut off. My spirit and nerves almost collapsed, 
after my father was taken away from us. I had to endure the 
pressure in my day-to-day life, suffered discrimination from 
classmates and teachers, and was forced to experience the 
loneliness at young age. I lost all my sense of security.
    My 3-year-old brother also had to sit in the police car to 
classes. His kindergarten classroom is the only room with a 
surveillance camera in the whole nursery.
    In September 2008, the policemen did not allow me to go to 
school. This prompted our determination to leave China to 
escape this unbearable mistreatment, partly for education. 
Under friends' help, my mother took me and my brother to flee 
China, and came to the United States. Coming to this land of 
free, I did not have a trace of excitement. I missed my father 
so much. Combined with the accumulated worries about my father, 
I couldn't take it anymore and experienced a complete nervous 
breakdown. The first Christmas night in the United States, I 
was admitted into the hospital.
    I have been living in the United States for nearly 5 years 
now. I couldn't hear my father's voice nor received his letters 
or word about current situation. I miss him so much. The most 
recent news was on this past January that my uncle went to the 
prison to see him. My uncle was not allowed to release any 
information about my father by the Beijing Authority. It is 
almost another year since then. For various reasons and 
regulations, they did not allow my family members to see my 
father. My grandma, grandpa, three aunts, his brothers, 
sisters, and all other relatives, all my relatives' names were 
so-called blacklisted. They were deprived the basic rights of 
even getting a passport. Eight years passed, the persecution on 
my father is not only still continuing, but also extends to all 
of his family members. Living in the freest country with the 
world it has been sour in my heart. The freedom has not yet 
been open to me or my family.
    My younger brother tearfully said to me once, ``I really 
couldn't remember Daddy's face and figure; I am no longer 
familiar with his voice.''
    Today, gathering my courage, I come and speak up of my 
story and injustice suffered. I want to let you know that my 
father is still behind the bars, and my mom is in poor health, 
struggling to support the family. I need to go school to 
complete my education, and my brother is still small. How 
individuals or a family can constantly fight with a huge 
country that has made our family's suffering so long. I hope 
the U.S. Government and the people can hear our hopeless voice 
and act right now. I know that only you can help me get back to 
my normal life, comfort my brother's young heart and feelings, 
help my father to be released with peace and get my reunited. 
Thanks.
    [The prepared statement of Ms. Geng follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Geng, thank you so much for your testimony.
    Ms. Ti-Anna Wang.

   STATEMENT OF MS. TI-ANNA WANG, DAUGHTER OF WANG BINGZHANG

    Ms. Ti-Anna Wang. Thank you honorable Members of Congress 
for giving me the opportunity to testify today. My name is Ti-
Anna Wang, and as the world prepares to commemorate 
International Human Rights Day, I would like to tell you about 
my father, Wang Bingzhang, a political prisoner currently 
serving a life sentence in China.
    My father, Wang Bingzhang, is a New York-based, permanent 
U.S. resident and a prisoner of conscience currently serving 
the 11th year of a life sentence for his pioneering work in 
pro-democracy activism. He is the founder of the overseas 
Chinese democracy movement and dedicated his life to promoting 
rule of law, freedom and human rights in China by starting the 
dissident magazine, China Spring, and several organizations 
opposing the Communist government.
    In 2002, my father was kidnapped in Vietnam and forced back 
into China where he was taken into custody by Chinese police. 
After being held incommunicado for 6 months, he was subjected 
to a sham trial and found guilty of ``espionage'' and 
``terrorism.'' My father was sentenced to life in prison and 
has been serving his sentence in solitary confinement ever 
since.
    In a country without meaningful rule of law, my family has 
no means to legally appeal my father's conviction, despite 
having secured exonerating evidence for the graver charges 
against him. The lawyers we have retained on his behalf are 
routinely intimidated by authorities, obstructed from visiting 
him, and threatened with disbarment.
    My father will be turning 67 in a few weeks. The past 
decade of confinement has taken an irreversible toll on his 
physical and mental health. While he languishes in prison, I 
have spent the past decade campaigning for his release by 
telling his story on public platforms and lobbying the American 
and Canadian Governments for assistance. As a result, the 
Chinese Government apparently decided that I too needed to be 
punished. Since I began speaking in public, the Chinese 
Government has refused to issue me a visa. It is now been 5 
years since I have been able to visit my father.
    I am joined here today by four young women whose 
circumstances are disturbingly similar to my own. Each of us 
have had our young lives defined by our father's wrongful 
imprisonment. So I speak on behalf of the five of us when I 
urge the United States to intervene more assertively on our 
behalves.
    First, I unabashedly ask the leaders of the U.S. 
Government, including President Obama, Vice President Biden, 
Secretary of State Kerry, and Ambassador Power to seize all 
diplomatic opportunities with China to seek the release of our 
fathers. I believe high-level diplomacy is our fathers' best 
chance for freedom, and their releases must be discussed on 
occasions such as Vice President Biden's recent trip to 
Beijing. I request the help of all Members of Congress in 
conveying this message to the administration and compelling 
them to act on our behalves.
    Second, I ask the Obama administration to meet with the 
five of us and listen to our first hand experiences as 
witnesses of China's human rights abuse. I want our stories and 
efforts to be heard, acknowledged, and taken into serious 
consideration when the U.S. devises its foreign policy with 
China. And again, I ask Members of Congress to help us secure 
such a meeting with top U.S. leadership.
    I would like to end my statement by reminding everyone that 
it was the very values espoused by the U.S. Government and 
other democracies that inspired activists like our fathers. If 
we cannot ask this government and its leaders to advocate for 
their release, to whom else can we turn?
    [The prepared statement of Ms. Ti-Anna Wang follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you for your extraordinary testimony.
    Ms. Chen.

   STATEMENT OF MS. BRIDGETTE CHEN, DAUGHTER OF LIU XIAN BIN

    Ms. Chen. Dear honorable friends, my name is Bridgette. 
Today, I want to simply introduce the current situation of my 
father, Liu Xian Bin, as a daughter and a witness. My father 
has been in prison three times which totals up to 14 years 
because of his political views. Like every other parent, my dad 
has always wanted to take care of me as I grew up, yet he was 
absent from my childhood until I was 11. When he was released 
from prison in 2008, it was so hard for him to believe that I 
had already grown up. However, he was once again taken away 
from my life by the policemen in June, 2010. Therefore, I came 
to the U.S., and the distance between my dad and me was 
lengthened. Moreover, my mom was unable to leave China since 
the government would not grant her a passport. Because of this, 
my family was separated in three different places: My father is 
in an actual prison, and my mom is in an invisible prison. As a 
daughter, all I want is the reunion of my family, and the 
completion of my parents' marriage. However this simple wish 
became unrealistic in China, and my dad was convicted of 
inciting subversion of state power just because he has told the 
truth and done what is righteous.
    Life in prison must have been really hard for my dad, but 
fortunately, we can still encourage each other by mailing. In 
the newest letter from my dad, he wrote,

        ``My child, your complaint of your ugly handwriting has 
        made me feel guilty, for if I was with you when you 
        were little, I would have taught you a beautiful 
        cursive. The absence of me has made this family 
        incomplete, and it must has been difficult for both you 
        and your mom when I am not by your side. So I can only 
        express my love through these letters so that you would 
        still feel my love for you even when I am not here with 
        you. Never stop being virtuous and kindhearted, for 
        even though kind people has always been treated 
        unjustly in this chaotic world, they will be blessed 
        and remembered eventually.''

At the end of the letter, he writes,

        ``Your happiness and confidence in the United States 
        has comforted me. You know what, all a parent want is 
        to see his children live happily, healthily, and 
        peacefully.''

    Like my dad mentioned in this letter, kind people will be 
blessed eventually. I hope and believe, one day my dad, and 
those who have suffered for human rights and justice in the 
world as the China 18, will eventually receive the freedom they 
deserve, the freedom of both their bodies and souls. Therefore, 
I sincerely ask the U.S. Government, Mr. Biden, and President 
Obama to concern more of the families of prisoners of 
conscience and help us to free our fathers. And I ask for an 
Oval Office meeting with President Obama for a more direct and 
detailed conversation in order to reunite our families. And 
dear friends, please keep helping us to free all the prisoners 
of conscience and to keep truth and justice for every human 
being. Just like Thomas Jefferson wrote in the Declaration of 
Independence, everyone deserves the rights of life, liberty, 
and the pursuit of happiness.
    There was misery and fear in the past, but there is more 
hope ahead of us. Thank you.
    [The prepared statement of Ms. Chen follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Chen, thank you very much.
    Ms. Wang.

    STATEMENT OF MS. DANIELLE WANG, DAUGHTER OF WANG ZHIWEN

    Ms. Danielle Wang. Thank you to the organizers for 
including my dad's story in this event. In a way, Zhiwen Wang 
can stand in for millions of Falun Dafa practitioners in China 
living under persecution by the Chinese regime. All of the 
victims being honored here and their families have endured many 
hardships that should have never come about. Yet the fact that 
we are standing here today with all of you in the audience 
shows that there will always be people standing up for justice 
and the greater good in the world.
    The holiday season is coming up again. Here in the United 
States, many families are getting ready to gather for Christmas 
and New Year's. In China, we would be starting to look forward 
to Chinese New Year. But this time of year is always 
bittersweet for me, because of the painful absence in my family 
since my father's summary arrest and detention in July 1999. He 
was targeted for no more than his peaceful practice of Falun 
Dafa, and he has been gone for over 14 years.
    My Dad was born in 1949, the same year as the People's 
Republic of China. He served his country throughout his long 
career, including as an engineer at the PRC Ministry of 
Railways. He began practicing Falun Gong in 1992. Over the next 
5 years, he became a volunteer contact person for Falun Gong 
practitioners in Beijing, teaching the exercises, meditation 
practice, and principles of truth, compassion, and tolerance.
    In the early morning of July 20, 1999, according to 
eyewitness accounts from our neighbors, my father was seized 
from his bed by police and taken away in waiting police vans. 
He was subjected to physical abuse. The tortures includes his 
teeth being pulled out, all his collar bones were smashed. They 
put bamboo sticks and pierced all his fingers. He suffered 
numerous beatings. No sleep for 7 days. I have in my hand a 
wooden stick that I recently obtained from China. Fifteen 
years, that is the only thing I get from him. That was a 
polished wood stick that he polished with his hands in jail. It 
is really smooth, but that is the only thing so far I ever got 
from him. Being away from my dad, without his guidance is very 
hard.
    I hope that the decisions I have made in my life will make 
him feel really, really proud.
    On my wedding day, we placed a single rose in his chair to 
symbolize his absence and celebrate his place in my life. I 
still have that rose, it has been dried and discolored. I 
really hope that he can be always with me.
    Throughout the past decade and a half, I have been working 
to get my father released. Though I am only one person, with 
limited abilities, time, and resources, I have always felt 
obligated to dedicate 100 percent of my effort to raising 
awareness of my father's unlawful arrest and detention for no 
more than his spiritual beliefs.
    I would like to bring my dad home one day, so here, I want 
to ask you as Congress to ask the Obama administration to meet 
with U.S. five daughters to hear our stories and bring him 
home. I also want to speak on the phone with my father. I want 
to channel two-way communication with my father. I want him to 
be released safely from jail and give him a life here in 
America.
    And finally, last, I want all of the Falun Gong 
practitioners in prison in China be released. I really hope 
that happens. It is really hard to go on and I never truly felt 
that happy ever, ever since my dad was arrested. And all the 
daughters here, they are so much younger than me. I just hope 
they don't go through what I go through for 15 years. Thank 
you.
    [The prepared statement of Ms. Danielle Wang follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Wang, thank you. And your testimonies need 
to be heard by the President of the United States, the Vice 
President, Members of the Congress, House, and Senate, members 
of the U.N. I find it appalling that on November 12, 2013, 
China was elected to serve as a member in good standing on the 
U.N. Human Rights Council. It seems to me that your 
testimonies--and we will send your testimonies to every member 
on the U.N. Human Rights Council, as well as to every head of 
delegation at the United Nations and Ban Ki Moon as well--they 
need to hear the extraordinary agony that you and so many like 
you suffer as a result of having your dads and other family 
members in other cases ripped away from you. I can assure you, 
we will do serious follow up to make sure that the five 
daughters and your testimonies are heard by a greater number of 
people.
    I respectfully ask that the press amplify not just for 
today, but in a serious and sustained way the plight of your 
dads and other people, because you are not exceptions. You are 
the pattern. You are the norm in China today. And I can assure 
you that our human rights subcommittee will continue doggedly 
to try to reach the hearts and minds of our own Government 
officials so that this is not a talking point on page five, if 
it is that at all, and that Xi Jinping and others in the 
leadership take seriously the damage they are doing to the 
people over which they rule.
    I do believe your fathers would be extraordinarily proud of 
you being here and for your tenacious defense of them for so 
many years. I mean what love, what compassion, what empathy. 
Five brave, compassionate young women from China, you do your 
countrymen and countrywomen a great service. Americans should 
see this is the pride of China sitting here and I am in awe, 
frankly, of each of you and I thank you for your testimonies.
    As a source of perhaps some hope, immediately behind you 
sits Chen Guangcheng and Yuan Weijin, his wife, who suffered 5 
years of imprisonment and house arrest and as you all know, he 
made a herculean journey to the U.S. Embassy and thankfully by 
the grace of God, he now is a free man, but his nephew is not 
and we will hear from the father of his nephew in our next 
panel. But there is hope and I can assure you that if we do 
more and make this the priority, not a distant page five 
asterisk priority, which it is now in far too many 
policymakers' minds, it will help effectuate the release of the 
innocent fathers who are suffering so bravely and so horribly 
in Chinese Laogai and prisons and detention centers.
    Just a very brief question, if all of you could speak 
directly to Xi Jinping, maybe in a minute or so and to 
President Obama. I did notice I think at least two of you, 
maybe more, suggested a White House meeting. I think that would 
be a tremendous idea. The President needs to hear you, look you 
in the eyes and hear what you have got to say. When we meet--
and I do this as well, when you meet with high government 
officials, with all the trappings of office, what really 
happens on the ground, especially with ubiquitous secret 
police, that are in the employ of the Government of China, is 
that a whole different story is told as to what really occurs, 
day in and day out, especially in the prison camps and the 
Laogai throughout China.
    So what would you say to Xi Jinping? What would you say to 
President Obama? What would you say to Ban Ki Moon? Because 
certainly those three individuals and others, could have a huge 
effect on the plights of your fathers.
    Ms. Peng.
    Ms. Peng. Many people have asked me why have I, as a 17-
year-old, sort of given up a part of my life, my childhood, to 
go to Taiwan, to go to DC to testify on behalf of my father, 
and what I hope to accomplish. The answer to that question is I 
was a second child in China, so I wasn't granted official 
recognition. I had no right to an education. So when we fled 
political persecution, because of my father's political 
activism and the fact that I was accepted by the United States 
and granted citizenship years ago, I feel immensely grateful to 
have been able to receive such a great American education and 
to learn about these issues of human rights, democracy, 
justice, and freedom. And therefore, I feel that it is my moral 
obligation, not just to my father, not just to the China 18, 
not just to the thousands of prisoners in China, but to these 
fundamental values that every single human being on this planet 
deserves.
    So therefore, I think by not speaking out, by not doing 
anything, by merely watching and looking as these atrocities 
continue to occur, that I will be sending the wrong message to 
China, to President Xi Jinping. The message that I don't want 
to send is that it is okay, is that I will merely watch by and 
that is a form of tacit consent. So it is my belief that any 
little step I can do, any time I have the opportunity to share 
my story, to share my story of the American dream which was 
inspired by President Obama's American dream as well, I really 
hope that he will continue to press for the release of my 
father and the fathers of the young ladies with us today and to 
make human rights the forefront of our agenda, which I believe 
is the fundamental foundation on which other conversations of 
economics can develop.
    Mr. Smith. And that is a hope, making it a forefront of our 
agenda, that has not been achieved.
    Ms. Peng. Right.
    Mr. Smith. Ms. Geng.
    Ms. Geng. Yes, I want to say to Xi Jinping to please 
release our fathers so they can come back with us. I hope that 
the governors in China can visit my father since the Chinese 
Government doesn't allow my family to see my father and please 
give us more information about our father's situation and his 
condition of health and that's all. Thank you.
    Mr. Smith. Ms. Ti-Anna Wang?
    Ms. Ti-Anna Wang. To President Xi Jinping, I would like to 
ask him to please release our fathers so that our families can 
be reunited, that we can finally end this nightmarish chapter 
of our lives. To President Obama, I would like him to know that 
his personal intervention is our fathers' best chance for 
freedom and I would like him to prioritize human rights in 
high-level diplomacy. And to Mr. Ban Ki Moon, I would like him 
to defend the universal values of human rights by advocating 
for our fathers' release publicly. Thank you.
    Ms. Chen. I would like to say to President Xi Jinping to 
please release our fathers and all the prisoners of conscience 
in order to fix the country, to make this country better and 
stronger. I would like to receive the basic rights of life, 
liberty, and pursuit of happiness and I want my family's 
reunion and my parents' marriage completion.
    And also, I want to say to President Obama, who is the dad 
of two daughters, please understand our situation and let our 
voice be heard. And please help us to make this country and 
this world better. Thank you.
    Mr. Smith. Ms. Wang.
    Ms. Danielle Wang. I want to talk to Xi Jinping, you know, 
I want to explain to him that the principles of Falun Gong 
which are never wrong which are compassion, truthfulness, and 
endurance. I want my father to be released because I know he is 
a father, too. And his daughter actually studied in U.S. not 
too long ago. I think he understood a daughter really crying 
for her dad's safety, nothing more than a girl wants her 
family.
    I want to talk to President Obama because he is the leader 
of this very strong country and I hope he can stand up for the 
basic human rights and get our dads safely home.
    Mr. Smith. Thank you. I noticed Grace, in your testimony, 
you mentioned how that when your father was home after the 
forced disappearance, ``he would try to show a lifted spirit 
and entertain me and my brother with humor.'' That certainly 
underscores that even though he had suffered so much, his love 
and devotion to you and your brother was so strong, but he 
tried to divorce himself. He obviously didn't just unload and 
tell you all the terrible things he had suffered. That has to 
make it even more painful, knowing that he was putting you 
first and now, of course, he has disappeared again. That, I am 
sure, has been the situation with all of you because you are 
such devoted daughters, so full of love and devotion, but I 
caught that as a very important aspect of your testimony.
    Also, I noticed, Ms. Lisa Peng, you said you suffered 
doubly, because you were a second order birth. Most Americans 
are woefully uninformed, and I would say most people in the 
world are, about how draconian, the one-child-per-couple policy 
is and that when a woman is able to, through hiding her 
pregnancy or perhaps even sometimes a payoff to family planning 
cadres, have a second child, that second child is grossly 
discriminated against. If you would briefly speak to that.
    Ms. Peng. I think some other people have mentioned, 
especially Grace, about the isolation that she suffered in 
China. Because I was a survivor of the one-child forced 
abortion policy, I of course was considered a non-entity, 
couldn't go to school. And even when my mom would drive my 
brother to school and I was in the car, the government would 
have four secret police tailgate us and bump into us as we were 
driving to school. And our house was, of course, tapped, not in 
particular because of me, but mostly because of my father's 
activism. So there was no future for me in China. And so the 
fact that I safely escaped and was accepted by the United 
States and respected in classrooms and my voice is heard in 
classrooms and I have opportunities, unimaginable opportunities 
to do whatever I want in the future and to give back to the 
community that has given me so much, that is really what makes 
me feel so grateful and hopeful every day.
    Mr. Smith. I would like to yield to Mr. Pittenger and then 
to Mr. Meadows.
    Mr. Pittenger. Thank you, Mr. Chairman. Thank each of you. 
I am a father of three daughters. I love my daughters. Your 
fathers love you. One of my daughters' name is Grace. I want 
you to know how special you are to your dads. You have taken up 
his cause. You have taken up the cause of liberty, of freedom, 
of democracy, something that you will never be able to break 
from. You know the pain and the difficulty it is that your dad 
is going through and yet you are living for him, you are living 
for those like him in your country and throughout the world. So 
I really want to commend you for your life. You are living a 
very profound, just life, and your fathers are very deeply 
proud of you as I am proud of my daughters, not necessarily 
because of what they do. Fathers love their daughters no matter 
what. And your father's abiding love is always there and I hope 
that you will sense and you will know that.
    And I pray that someday you will united with him. I want 
you to know that your work will not be in vain. As you live 
your lives and you should live your lives. Your father wants 
you to live your lives, but you will also be carrying this 
banner that it will not be in vain. You play a very important 
role and as you continue to live and to speak and to be a part 
of coming here to Congress and going to other places, you will 
have a major impact upon the whole world. So you are part of a 
very great cause. You have been chosen for a very important 
time. This is an important day, an important era that America 
needs to recognize that human rights, religious liberties, 
freedoms of conscience are superior. They are preeminent. They 
are far greater than any economic destiny or hopes that we 
would have. They supersede all.
    So I am grateful for your lives. I am grateful for your 
testimony. And having said all that, I would just like to ask 
we as Members of Congress, we are busy people. There are many 
issues in this country. This will always have a deep impression 
for us. But if you want to give us a reminder, if you want to 
give something to the American people, if you want to leave one 
word to the American people, if you want us to convey one 
thing, what is that one thing? When you go to bed every night, 
knowing that you are alone, knowing that your dad can't hug and 
kiss you goodnight, knowing that thousands and millions of 
others can't as well, what do you want us--what can we carry 
back to our Members of Congress, to our colleagues that will do 
the most to cause us to make sure that this is objective is 
achieved? Could you just speak a little bit to that?
    Ms. Peng. Rather than asking myself when will be my father 
be released, I instead try to think my father hasn't been 
released yet. We haven't been reunited yet. He hasn't received 
medical care and he hasn't received visitation rights yet. So 
for me the word ``yet'' really encapsulates my hope and my 
faith and my father's hope and faith and our hope and faith 
that one day we will be reunited. But I think hope is 
necessary, but not sufficient because even though I have 
immense hope that my father will be released, even though he 
has immense hope, we have to act on that hope and we have to 
make that not just a dream, but a reality.
    So I think the importance of today's hearing is to try to 
make that transition as soon as possible by calling for an Oval 
Office meeting by asking Vice President Biden to raise the 
names of these political dissidents. I think that--and high-
level diplomacy--is how we can make that effective transition 
from dream to reality. So that is what I would say. Thank you.
    Mr. Pittenger. Thank you.
    Ms. Geng. I want all Americans to remember our fathers and 
stand up for our fathers. And that is all.
    Mr. Pittenger. Thank you.
    Ms. Ti-Anna Wang. To the American people, I would like them 
to know that it is the values of the United States that 
inspired my father to take the champion pro-democracy activism 
in the first place and I ask that he not be forsaken in his 
time of need. Thank you.
    Mr. Pittenger. Thank you.
    Ms. Chen. The word I want to give to everybody in the 
United States is love. It is because of my father's love to 
China, that is why he has done all the things, he has written 
all these articles, it is not because he hates China, it is 
because he loves China. And because of his love and because of 
my love to him, I came here as a witness. And because my mom 
has loved my dad and my mom has loved me, she didn't divorce my 
dad. She chose to keep this marriage and keep this family 
stable. And because all the people's love, they helped me to 
come out of China and study here and get all those happy lives 
right now. And because of everyone's love here, we can have 
this opportunity to be speaking here to fight for what we 
chose, to fight for justice and rights.
    Everybody think of love while you are doing this. It is 
because of love. Thank you.
    Mr. Pittenger. Thank you.
    Ms. Danielle Wang. The phrase I choose here is the courage 
to speak the truth. I think because my dad was withstanding his 
belief and he is trying to keep truthful to himself in his 
heart, he is being imprisoned. And I also believe that America 
was founded on being truthful to beliefs. So I really think 
there is a deep connection there. And I am here to speak what 
is true to my heart. So I think it is really meaningful to 
Congress.
    Mr. Pittenger. Thank you. God bless you all.
    Mr. Smith. Mr. Meadows.
    Mr. Meadows. Thank each one of you. As a father, a daughter 
has a special place in a father's heart and I want each one of 
you to hear that and just know that even though miles and time 
may separate you, there is nothing, nothing that will ever 
separate you from your father's love. I want to thank each one 
of you for your testimony and ask for your forgiveness. I was 
talking to my staff before I came here about the importance of 
making a difference in people's lives. And as I came to this 
particular hearing, we have been in a number of hearings, Mr. 
Chairman, on human rights issues in China and for me I thought 
well maybe it would just be another hearing. It has profoundly 
touched me, your testimony. I want to thank each one of you and 
just say as a father, speaking on behalf of your fathers, I am 
proud of you. Very proud of you.
    I also want to let you know that there are many 
negotiations and many things we do here in Congress that have 
lasting impact. But my commitment to each one of you is that as 
discussions go on with those in official positions in China, 
that not a single one of those conversations or negotiations 
will happen with my staff or me without the faces of each one 
of you being at the forefront of our mind. And so I want to 
just say thank you.
    Many of you have called on the President and truly on the 
Vice President to be your advocates. They are dads, too. So I 
would join with you and say that we need to make sure that this 
is not something that gets overlooked. You have my commitment 
to do that. And my friend and colleague, Mr. Pittenger here, 
had asked if you would each share one word. And so my one word 
to you would be that we will be unflinching in our dedication 
to help you in this area, but the one word is that you will see 
your dad soon. And so soon is where we will be and I just want 
to thank each one of you for being here today and for giving 
your touching testimony. I will yield back, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Meadows. And for the 
record, Mr. Meadows is the congressional delegate to the United 
States and I know in his contacts and lobbying of heads of 
delegation, he and I and others will literally carry your 
testimonies and put it in the hands of these individuals from 
the very top, from Ban Ki Moon, right on down. Your love and 
devotion to your dads, your courage, the pain and agony that 
you carry, as well as the rest of your family, just begs the 
question, we have to do more and why haven't we? So I thank you 
so much. Your testimony is landmark. It will have an effect. 
And I guarantee all of us and not just those that are here, 
others who are equally dedicated to the cause of human rights 
will be unceasing as my colleagues said and I associate my 
remarks to my two very distinguished friends and I thank you, 
too. As a father of two daughters, one daughter-in-law who is 
just like our daughter, we love her just as much, you are 
amazing and I thank you.
    I would like to now ask for our second panel if they can 
make their way. Thank you, ladies.
    Our second panel will begin with Pastor Bob Fu who was a 
leader in the 1989 student democracy movement in Tiananmen 
Square and later became a house church pastor and founder, 
along with his wife. In 1996, authorities arrested them and 
imprisoned them for their work. After their release, they 
escaped to the U.S. and in 2002 founded ChinaAid Association. 
ChinaAid monitors and reports on religious freedom in China and 
provides a forum for discussion among experts on religion, law, 
and human rights in China. Pastor Fu is frequently interviewed 
by media outlets around the world and has testified frequently 
as U.S. congressional hearings. He has also appeared before the 
European Parliament as well as the United Nations. Pastor Fu 
holds a double bachelor's degree from People's University and 
the Institute of Foreign Relations and has taught at the 
Beijing Communist Party School.
    In the United States, he has earned a master's degree from 
Westminster Theological Seminary and is now working on his 
Ph.D. And I just say from a very personal point of view, when 
we were working very hard for the release of the great Chen 
Guangcheng, it was Bob Fu who on two of those occasions during 
hearings on Mr. Chen, actually got in touch with him in a 
hospital room in Beijing and put the microphone, the phone 
right next to this microphone here and we heard directly from 
Mr. Chen who testified in absentia halfway around the world via 
Bob Fu.
    We will then hear from Mr. Chen Guangfu, brother of Chen 
Guangcheng and father of Chen Kegui, nephew of Chinese 
activists Chen Guangcheng, who was arrested after defending 
himself and his family against local government officials who 
forced their way into Chen's home on the night of April 27, 
2010, in Shandong Province. Mr. Chen was charged with 
``intentionally inflicting harm.'' All of these people burst 
into his home with fists and other things raining down upon Mr. 
Chen. Obviously, any of us would defend ourselves, but he was 
unfortunately convicted in December 2012 and sentenced to 3 
years and 3 months in prison.
    Mr. Chen has suffered beatings and a medical emergency and 
was rejected for consideration for medical parole. Chen Guangfu 
is the elder brother, as I said, and we will hear from him 
momentarily.
    We will then hear from Dr. Devra Marcus, a graduate of 
Stanford Medical School and a fellow of the American College of 
Physicians and for more than 40 years has been a Washington, 
DC, internist. In addition to her medical practice, Dr. Marcus 
has long worked to protect and serve Chinese Government 
targeted leaders and groups. She has traveled to Tumen, China 
to provide medical services for North Korean refugees and the 
Government of China seeks to deport to North Korea gulags.
    Dr. Marcus played an essential role in the case of Fang 
Zheng, the Chinese dissent, a Tiananmen demonstration amputee 
and ensure he received prosthetic limbs and prosthetic training 
and sent a message to China and elsewhere of American 
generosity and compassion.
    Dr. Marcus recently traveled to Hangju, China to examine 
and bring public attention to the case of imprisoned dissident 
Zhu Yufu and to protest the denial to him of adequate medical 
services. Dr. Marcus is from McLean, Virginia, and her name has 
long been a place for refuge for pro-democracy dissidents from 
all over of the world.
    Zhu Yufu is the founder of a major pro-democracy 
publication and China Democracy Party who was detained and 
sentenced to 7 years in prison in 1999. After his release in 
2006, Zhu was arrested in May 2007. He was sentenced, again, 
two more times.
    Pastor Fu, if you could proceed.

  STATEMENT OF PASTOR BOB FU, FOUNDER AND PRESIDENT, CHINAAID 
                          ASSOCIATION

    Mr. Fu. Mr. Chairman and honorable Members of Congress, 
thank you very much for giving this opportunity for those five 
daughters whose fathers are still suffering in prison, for 15 
years, 11 years, 10 years, and on.
    This is the third time in this year that I sit here to 
testify before the U.S. Congress, the international community, 
and all the people concerned with China's human rights 
condition about the rapid deterioration of human rights 
condition in China. Of course, nobody can really stay still and 
silent after hearing those cries and appeals of these daughters 
and fathers.
    We have been monitoring China's human rights condition for 
the past 11 years, because we specifically focus on religious 
persecution, human rights violations, and the promotion of the 
rule of law in China. We got to know hundreds and thousands of 
sons, daughters, and family members of prisoners of conscience 
like Ti-Anna Wang, Lisa Peng, Grace Geng, Bridgette Chen, and 
Danielle Wang, and of course, Mr. Chen Kegui.
    China's worsening human rights violations and its notorious 
human rights record are surely caused by this totalitarianism 
and wickedness of the Chinese Communist authorities, but are 
also a result of the loss of some God-given, self-evident 
fundamental ideals and principles by some countries like our 
country, the United States in recent years. Today, the reality 
that the Chinese Government dares to despite human rights 
dignity and blatantly violate universal values truly has a 
correlation with the appeasement policy of so-called ``harmony 
diplomacy'' adopted by some Western democratic societies toward 
totalitarianism.
    So I will just briefly use the three perspectives for my 
testimony today. I request the chairman to allow my written 
testimony into the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Fu. On June 6th this year, ChinaAid Association and 
other 30 international human rights organizations jointly 
launched the ``Free China 18 Campaign'' calling on the release 
of 18 Chinese prisoners of conscience. They are Wang Bingzhang, 
Peng Ming, Gao Zhisheng, Liu Xiaobo, Guo Quan, Zhu Yufu, Liu 
Xianbin, Yang Tianshui, Tenzin Delek Rinpoche, Yang Rongli, 
Alimujiang Yimiti, Wang Zhiwen, Lobsang Tsering, Li Chang, 
Gulmira Imin, Chen Kegui, Dhondup Wangchen, and Guo Feixiong. 
They are only the representatives of tens of thousands of 
political prisoners of conscience in mainland China. The 
majority of them expressed their views or protested against 
tyranny with peaceful methods, and some were imprisoned because 
of their religious faith. They are ethnically diverse, 
including Han Chinese, Tibetans, Uyghurs, and other 
ethnicities.
    And I would not be able to list all the sufferings, the 
tortures, the deprivations of their basic human rights because 
of the time limit.
    Apparently and clearly the condition for human rights in 
China has continued to worsen in recent years and recent 
months. It has reached the worst scenario since the Tiananmen 
massacre on June 4, 1989. Likewise, China is regressing in the 
rule of law and there is no sign of improvement in the short 
term.
    The Chinese Communist authorities also suppress house 
churches more harshly, and religious persecution is also 
worsening.
    Mr. Chairman, on this religious persecution front, I wanted 
to pay attention on several particular cases such as one of the 
largest independent house churches called Shouwang Church. It 
was forbidden to worship indoors; it was even forbidden to even 
enter into their own purchased buildings. They had no choice 
but to worship outdoors for 2 years. And believers go to 
different locations every week, and every week in the past 2 
years, a number of believers from 10 to 120 were taken to 
different police stations every Sunday, and it continues. Some 
were beaten, some women were raped, some pastors, elders of the 
church had been under house arrest for more than 2 years 
without freedom.
    Another case, this happened recently to a government-
sanctioned church group. Pastor Zhang Shaojie and 23 believers 
from Nanle County Christian Church, Puyang, Henan Province were 
taken into police custody secretly, and the majority of them 
have not received any legal papers so far. This happens to 
government-sanctioned church and church leaders just because 
believers of the church fight for their basic rights and social 
justice and offended some local government officials. Yet, the 
leaders, these 23, are still in custody.
    And of course, the Chinese Government has always spared no 
effort in its United Front work through religion and overseas 
propaganda packed with lies. Unfortunately, some U.S.-based 
NGOs or religious organizations take a different standing than 
standing united with those persecuted. As understandable as it 
may be, that Billy Graham Evangelistic Association needed to 
collaborate with the Chinese Communist Government in its 
disaster relief efforts, this organization, at the China U.S.A. 
Protestant Church Leaders Forum held in Shanghai and Beijing on 
November 19th and 20th of this year, just last month, according 
to the news released by the Chinese Government authorities, 
recognized leaders of the Three-Self Patriotic Committee, a 
puppet created by the government. The Billy Graham Evangelistic 
Association has collaboration with the Chinese Government-
sanctioned church bodies, recognized solely the representatives 
of the Chinese Government established church, and said nothing, 
nothing about the religious persecution to their fellow 
brothers in the house church.
    The 2014 General Assembly of the Word Evangelical Alliance 
will be held October 27 to 31 in 2014 in Seoul, South Korea. 
According to the Chinese Government, the WEA has already sent 
an invitation by the senior leaders to the Chinese Christian 
Council and the Three-Self Patriotic Movement Committee, the 
government organization, but it is still unknown if it will or 
has invited the leaders of the house churches who are the 
representatives, actually the majority of the Chinese church. 
The majority of the Protestant church leaders as we recall in 
the history of humanity, the majority of the Protestant church 
leaders back then in the 1940s, praised Hitler and pledged 
allegiance to Nazi Germany, the state government. They did not 
oppose principles of Darwinian evolutionary theory introduced 
by the Nazis and the notion of so-called pure breed and 
superior breed derived from it. We know how churches in Germany 
became an ally, shamefully, of the Nazi regime, betrayed God, 
and left the mark of shame in human history. Likewise, we want 
to know: Where do we want to stand? Do we want to stand with 
the Nazi, the Chinese Government Communists who established the 
church, as did the Nazis, did the church in Germany in 1940s, 
or do we want to stand with the confessional church which 
stands against the dictatorships and warmongers.
    So I want to just make five specific recommendations to 
Congress. I hope the Obama administration will deliver a note 
to the Chinese Government asking for the immediate and 
unconditional release of these 18 prisoners of conscience. And 
I hope President Obama will meet with these five daughters and 
other representatives of the China 18 as soon as possible so 
that he can hear directly from these daughters.
    Secondly, I hope human rights issues can become an 
indispensable component in the meetings and the strategic 
dialogues between Chinese and American top leaders.
    Thirdly, I propose to broadcast live the annual Chinese-
U.S. Human Rights Dialogue on the Internet, make the dialogue 
specific in goals and substantial in content. Make evaluations 
of the China binding. Don't reduce the highest level human 
rights dialogue between the two countries to a useless show.
    Fourthly, I hope the House Committee on Foreign Affairs 
will make it mandatory that the officials of the U.S. Embassy 
and consulates in China, especially the visa officers, receive 
at least 14 days of systematic training on the background of 
human rights and religious freedom in China. I propose this 
because at present, many people who can make significant 
contributions to freedom and rule of law in China, and as well 
as the communication between China and the U.S., have been 
denied visas unreasonably, including some even invited by the 
leaders of Congress, even though they meet the criteria for 
entry into the U.S.
    Finally, and fifthly, as I just flew back from the Taiwan 
Congress along with Ti-Anna Wang and Lisa Peng after we 
testified before the Taiwanese Congress, one bit progress was 
made, that is, in the Taiwan Congress--four Members of the 
Taiwan Congress, along with the 14 or more Members across party 
lines, issued a letter to the leaders of the Taiwanese 
Government, including President Ma Ying-jeou to urge them to 
clarify whether Dr. Wang Bingzhang is a spy from Taiwan. In the 
letter it says if Dr. Wang, who was sentenced to life in prison 
for being accused as a Taiwanese spy and with terrorism, if he 
is a spy, the Taiwanese authorities have a moral and 
governmental obligation to fight for his freedom. And if he is 
not, it makes more sense that the Taiwanese Government should 
seek clarification for the international community and for the 
Wang family, including the daughter, Ti-Anna Wang.
    So the deadline for the President Ma Ying-jeou to submit 
that clarification to Taiwanese Congress, and actually it was 
promised already by President Ma Ying-jeou's representatives 
during the hearing, is December 10th before the Human Rights 
Day.
    Mr. Smith. Pastor Fu, we will come back. We are out of 
time----
    Mr. Fu. I will finish one sentence, sorry. I ask Mr. 
Chairman to really do a follow up--formally request President 
Ma Ying-jeou and Taiwanese Congress and through the American 
Institute in Taiwan to do a follow up for that request because 
both Dr. Wang and Mr. Peng Ming are permanent residents of the 
U.S. as refugees. Thank you.
    [The prepared statement of Mr. Fu follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. We will. So thank you for that recommendation. 
We do have a series of votes and I apologize and we will have 
to take a very brief recess. But I do encourage, to the best of 
your abilities, if the press could stay to hear our two next 
witnesses who have really done enormous work on behalf of human 
rights. Chen Guangfu is here in the United States, but he is 
going back and he has bravely come forward on behalf of his son 
who is imprisoned and I would just hope if you could stay long 
enough to hear these two fine testimonies. We stand in very 
brief recess.
    [Recess.]
    Mr. Smith. We will resume our seating. We do have a few 
members that I know who are making their way over from the 
votes. We have been joined by Congressman Trent Franks from 
Arizona. Mr. Franks is the chairman of the Religious Freedom 
Caucus here in the House. He is also chairman of the Judiciary 
Committee's Constitution Subcommittee and we welcome him to the 
hearing. Thank you for being here today.
    Our next witness will be Chen Guangfu. As previously 
introduced, he is the brother of Chen Guangcheng and is 
extraordinarily important as the father of Chen Kegui, who has 
been arrested. Mr. Chen is here and will be going back so I 
want to again underscore and salute his bravery in coming 
forward as he is doing. He is a dad who cares so deeply and 
loves so deeply his son. And like the panel before us where 
five daughters spoke out so eloquently on behalf of their dads 
here is Mr. Chen speaking on behalf of his son.
    Mr. Chen.

 STATEMENT OF MR. CHEN GUANGFU, BROTHER OF CHEN GUANGCHENG AND 
                      FATHER OF CHEN KEGUI

    [The following testimony was delivered through an 
interpreter.]
    Mr. Chen. Honorable Congressman Mr. Smith, members of 
subcommittee on global human rights of the Committee on Foreign 
Affairs and ladies and gentleman, I am Chen Guangfu, the older 
brother of Chen Guangcheng, the father of Chen Kegui. Speaking 
of the long-term persecution of our family, the name of Chen 
Guangcheng has to be mentioned because this is a continuation 
of the persecution of Chen Guangcheng. The current imprisonment 
of Chen Kegui is the punishment for Chen Guangcheng's escape. 
After Chen Guangcheng risked his life to escape from his home, 
the officials of local authorities worked themselves into a 
frenzy of rage and fear.
    It was past midnight of April 27, 2012, when I was 
kidnapped with a black hood on my head by the police of Yinan 
County. Led by the captain, Xu Kewei, the police officers in 
plainclothes climbed over the wall and broke into my house 
without going through any legal procedure. They were in 
plainclothes. They did not go through any legal procedure. I 
was taken to the Unit of Economic Affairs Investigation, Yinan 
County, and put through nonstop 72-hour-long torture, during 
which I was tied to an interrogation chair with handcuffs and 
foot chains. They heaped abusive language on me, struck me hard 
on the face, trampled on my toes, whipped me, deprived me of 
food, drink, sleep, and denied me the use of the bathroom as 
well other inhuman treatment.
    About 20 minutes after my kidnapping, the head of Shuanghou 
Township, Zhang Jian, led two dozen personnel, armed with picks 
into my house, rummaging through every room without any legal 
justifications. They carried off cash, cell phones, ID cards, 
documents, and other items. They damaged the TV set, the sewing 
machine, and furniture. They pried open several locked drawers 
and took away everything in them.
    During the search, they beat up Chen Kegui's mother, while 
Kegui was beaten with clubs the mob was carrying and left him 
injuries on the face, neck, arms, and legs. When Kegui's mother 
was attempting to protect her son with her body, she was 
grabbed by the hair and savagely beaten. In fear of his life 
and in order to protect his son--stricken with a fever--whose 
body temperature reached 104 degrees, Kegui grabbed a knife in 
self-defense. At the sight of the knife, Zhang Jian yelled, 
``He has a knife in his hand, kill him.'' In desperation, Kegui 
slashed at the attackers with the knife and injured Zhang Jian 
and two of his men in the chaotic darkness. Afterwards, Kegui 
dialed 110 for police, but police did not take any action. In 
fear of his life, Kegui left home and went into hiding.
    On April 29th, Kegui turned himself in at the Hong Hua Fu 
Police Department in Yancheng City.
    On the same day, Kegui's mother was arrested, interrogated, 
and tortured before she was thrown into jail. In prison, she 
was forced to work a dozen hours every day in spite of her 
illness, laboring over needlepoint work, which was to be 
exported for foreign exchange. Because she couldn't fill the 
data quota, she was penalized by standing in front of 
everybody. Sometimes she had to stand for 6 hours straight 
during one night. On May 5th, she was released on bail. She 
went to the hospital for physical examination. The examination 
results showed infection, in addition to a kidney stone. She 
also has periarthritis due to the beating. The medical cost was 
up to 4800 Chinese yuan.
    On the 27th, Kegui's wife, Liu Fang, received a short 
message from Kegui, ``Please hire lawyer for me.'' Afterwards, 
two attorneys, Ding Xijui and Si Weijang from Beijing, were 
retained, but they were never allowed access to the case even 
though they have been to Yinan five times. The reason given by 
the authorities was they have only made arrangements by hiring 
legal aid lawyers.
    On November 30, 2012, the case of Chen Kegui was put on 
trial, but Kegui's family was not notified of the court trial. 
The witnesses on trial were all perpetrators who were involved 
in beating, looting, and robbing at my house. The testimony of 
Kegui's mother was given under the threat that you have to sign 
whatever we ask you to sign. If you don't sign, you will die 
here. You don't have any human rights in here.
    Kegui was sentenced to 3 years and 3 months in prison, 
which is in violation of substantive and procedural law. 
Apparently he is serving time in the prison located in Jining, 
Shandong province, the same place where Chen Guangcheng served 
his time before.
    Since early March 2013, on my way to sending my grandson to 
his school, I have been followed many times by men on 
motorcycles, military jackets and helmets. One afternoon after 
school hours, Hui Shitai, from the Family Planning Office, went 
to the school asking to send for my grandson. They even did not 
want to leave a small child alone. Beginning from April 18, 
2013, they would throw rocks, bricks, and beer bottles at my 
house around 1 o'clock a.m. every night, damaging the tiles, 
doors, and windows. They also threw dead chickens and ducks 
because the bird flu was at its peak at the time. They also 
posted and passed along a large amount of pamphlets, hurling 
abuse and insults of Chen Guangcheng, calling Chen Guangfu a 
traitor and a troublemaker. They also threatened to break our 
legs and stone the whole family to death. The poplar tree that 
we planted was pulled out several times, and they did the same 
to vegetable fields, leaving them withered.
    All this persecution was aimed to stop Chen Guangcheng from 
going to Taiwan. During this time period of harassment, I 
called for police a dozen times, but it came to nothing. 
Sometimes they just refused to answer my phone call. Whenever I 
changed to another phone, immediately the phone call went 
through, but the police never took any action.
    On May 9th, an unidentified person who was driving a car 
without a plate assaulted me and damaged my motorbike. After I 
returned home, I tried to post the assault incident online, 
only to find that my account had been closed.
    If throwing dead chickens and dead ducks are some petty 
crooks' doing, I believe it must have been big crooks behind 
the account cancellation.
    On April 24, Chen Kegui was positively diagnosed with 
appendicitis, but the prison administration repeatedly denied 
the family's application for release on parole for medical 
treatment. The delay in treatment resulted in suppurative 
appendicitis from which he still hasn't recovered, while at the 
same time he is ordered to work over 10 hours manual labor.
    In May 2012, the Central Government promised that the 
persecution of Chen Guangcheng and his family by local 
officials would be thoroughly investigated. However, this 
promise has not been fulfilled at this point.
    Finally, I sincerely hope that in accordance with human 
rights principles the U.S. Congress and the Obama 
administration extend their fundamental support to those 
Chinese citizens who suffer from political persecution. Thank 
you.
    [The prepared statement of Mr. Chen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Guangfu, thank you very much for your testimony. 
I do have some questions but I will wait. Now I would invite 
Dr. Marcus to present her testimony.

    STATEMENT OF DEVRA MARCUS, M.D., PHYSICIAN AND ACTIVIST

    Dr. Marcus. Thank you very much for inviting to this event 
which I have found inexpressibly moving. My own experiences 
were moving enough, but this has gone beyond anything that I 
had experienced before.
    First of all, I think the chairman articulated what I have 
learned extremely well and I have nothing to add to that. It 
was an incredible summary of the condensation of my own 
experiences in China.
    Secondly, I think that the daughters of the men who are 
imprisoned are a credit to the United States. It is China's 
loss. These young women are just astonishing and actually are 
exemplars of what we would hope all of our children would 
epitomize; their dignity, honor, passion, and commitment to the 
values that make the United States unique are beyond anything I 
ever anticipated. I am so proud that we offer them the ability 
to explore life fully even though it has an inordinate amount 
of pain associate with it. At least they have the freedom to 
express their points of view.
    I might then segue just a bit to why I got interested in 
this because there is a sixth daughter whom I will speak for 
without her authority, but I think she would give it to me and 
that is Zhu Li who is the daughter of Zhu Yufu. This is the man 
whom I went to visit and I went because we have something that 
Bob Fu calls fondly, I think, the Horowitz Hilton. When Chinese 
come to Washington for one reason or another, we house a number 
of them and it has enriched our lives enormously. Among the 
people who came to stay with us were, in fact, two sisters and 
a brother of Zhu Yufu. Two of them now have sought political 
asylum and attained it along with their spouses and one child, 
I believe, each. I think that both of them have left a child 
behind in China. There was a third sister who has a son by a 
Japanese man and she has gone back to live in Japan now.
    We bonded with one another over knitting. It was quite 
remarkable. We sat at the kitchen table, neither of us spoke 
each other's languages, but we spoke the language of knitting. 
And they are inordinately talented. I had huge admiration for 
them. In addition, I do brush painting and the brother, Zhu 
Qiaofu, is a brush painter, so we made friends over art, if you 
will, without language at all. That got me interested in Zhu 
Yufu. It also taught me the lesson of the price that is paid by 
families, including extended families for the nobility of 
thought of someone that they love.
    I happen to see a submission by a lawyer on behalf of Zhu 
Yufu to the U.N. indicating that he had cardiac problems of a 
rather potentially severe nature that might cause him either to 
die suddenly or in fact, to develop an illness that if it were 
not properly treated would cause him to die. I opined that if 
it were possible for me to do anything to make life easier for 
him which is to say to get him adequate medical attention, I 
would like to do it. And as it happened, it was thought by 
people who were very active in human rights in China that it 
might be useful for me to go. So I went. I went with Kody Kness 
who had spent time in China and speaks Mandarin. And we went on 
a date that we knew would be a day when Zhu Yufu's wife would 
be visiting him in prison. We met her in the prison. We were 
admitted to the prison. We then had to negotiate with a guard 
in the prison who wanted to know why I was there. I said I was 
there because I had read that Zhu Yufu had potentially serious 
cardiac problems and I wanted to be assured that he was getting 
adequate medical attention. I had been told that he was seen 
once a month, that he had his blood pressure checked, he was 
given an antihypertensive and he was given an herbal medicine 
for heart failure, but nothing more than that and that his 
treatment was very perfunctory at best.
    There also was some concern that he was despairing, given 
the fact that he had spent a third, at least, of his adult life 
in prison. The man, when I reviewed with him what the U.N. 
report said, ``Well, we don't believe in the U.N.'' Then I 
said, ``Well, what if he dies in prison?'' His response was, 
``There is no if.'' After a little more skirmishing, it became 
clear to me that we were not going to be allowed to get in. 
Finally, I said to him, ``Would you tell him that I have 
come?'' because I knew that it would be important to his morale 
if he knew that a westerner had come to visit him. The man said 
no and ushered us out.
    By that time he was pretty angry, but in control. But he 
subsequently detained us and confiscated Kody's cell phone and 
held the phone for a couple of hours and, I am sure, scrubbed 
it. So we have no idea what happened to the phone. We clearly 
could not leave the prison at that point because there were two 
guards here. We were here, the door was there. And there was no 
way we were going to get out. We got interviewed. The interview 
was relatively benign. Finally, after about 2 hours, the cell 
phone was returned and we were allowed to leave.
    As a result of our efforts to get in, the Chinese Internet 
carried this fairly widely and the attention of a rather 
eminent human rights lawyer was attracted. He came from Nanjing 
the following day, agreed to take the case, and started the 
legal proceedings to do so. He has, to date, not been permitted 
to see Xhu Yufu and in fact, we understand, relatively 
recently, has been threatened with withdrawal of his license if 
he continues to pursue the case.
    In addition, and we have heard about reprisal, Xhu Yufu has 
been moved from his prison block to the psychiatric block, 
which is not viewed as good news. It is, in a way, an effort to 
gaslight him and also to neutralize him so that he will be 
sufficiently demeaned, that he will give up his desire perhaps 
to live, although that isn't at all clear.
    What became clear to me with my relationships with his 
wife, Xhu Yufu's wife and his daughter, is that they are more 
or less in despair as opposed to the young women who are here. 
If Zhu Li were here, she would be shocked that anybody would be 
advocating for her and for her family in this body because her 
expectation is always to be told no and to back off. When she 
was doing my interpreting when we were in the office of the 
prison, every time the guard said no, she backed off and I had 
to almost pull her forward because no is viewed as no, not as 
an invitation to the dance or an invitation to negotiating, but 
no. So the repression of her ability to think is what was very 
striking to me, also the fact that her mother is emotionally, I 
think, really running out of resilience.
    So I learned about the long-term profound and extensive, as 
you have learned here again, repression in a way, indirect 
torture of family members of people who have a very profound 
sense of morality.
    The Chinese do indeed have laws on their books that would 
allow for the release of Xhu Yufu. He fulfills all the 
requirements. However, they are not allowing him to make 
application for early release, despite that. So the fact is 
that although the laws are on the books, they are under the 
control of political authorities and judges do not exercise any 
authority other than that which I believe is essentially given 
to them by the State. So it is unclear at this point what will 
happen to him in terms of his ability to make use of those laws 
which if he were able to do so, would allow for him to have an 
early release.
    I thank you very much. I am deeply appreciative of being in 
the company of the people in whose company I am today. Thank 
you.
    [The prepared statement of Dr. Marcus follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Marcus, thank you for your testimony and 
thank you for your advocacy, your willingness to put yourself 
out, to bring your medical degree and background, 40 years as a 
medical doctor to at least try to examine Mr. Zhu which would 
have been, I think, an extremely important contribution to his 
health. You have adopted, more or less, this brave man as a 
prisoner of conscience and more people ought to do just that. 
Find one or two individuals, adopt them and advocate for them 
the way you are doing and doing it again today. So I certainly 
thank you for that. It makes a huge difference.
    And to the Horowitz Hilton, I know you leave the light on. 
That is a different hotel chain, of course, and that generosity 
just goes so far in letting people know that the hospitality 
and the warmth that you and your husband, Michael, show to 
dissidents and people who have braved so much, suffered so 
much, and yet they find a place of refuge in your home. That is 
truly remarkable. Thank you.
    I would like to ask Mr. Chen, if I could just say briefly, 
your brother, Chen Guangcheng, has relentlessly, and I mean 
relentlessly in every speech, every venue that I have seen him 
at, here, right where you sit when he testified last spring, 
has pressed doggedly for the release of your son and has asked 
the State Department over and over and over again to advocate 
for his release and to hold your entire family harmless. That 
has been his number one priority and the fact that you are here 
today at his request, I think, further underscores that his 
concern for your family back in China is unceasing. He does say 
this to the State Department, ``What are you doing in-
country?'' Has the Ambassador, our U.S. Ambassador, tried to 
see Chen Kegui? What are they doing to advocate for his 
release?
    You mentioned in your testimony, and it was very telling, 
if I can find it again, how you spent 72 hours being beaten and 
tortured and that they also were beating family members until 
they got tired. They couldn't punch any longer because they 
were tired. That just underscores the brutality and the cruelty 
that I think most Americans don't appreciate and this goes on 
day-in and day-out directed against the best and the bravest 
and the brightest of the People's Republic of China. So I just 
want you to know that we will continue to bring your case, that 
of your son, the entire family, following Chen Guangcheng's 
tremendous leadership on that to try to get our Government to 
do far more than we have done.
    Guangcheng had asked a series of specific questions of the 
State Department and got back a totally inadequate answer. He 
laid it out here. He laid it out elsewhere, too, but from where 
you sit when he testified and got a nothing answer, which I 
found appalling, in terms of his own situation and the 
investigation that you referenced in your testimony as well. So 
thank you and I would like to yield to my good friend and 
colleague, Mr. Meadows for any comments or questions that he 
might have.
    Mr. Meadows. Thank each of you for your testimony and for 
being willing to serve and answer a call to truly make a 
difference, so I just want to say thank each one of you. I 
guess my question becomes, as I mentioned earlier, we have had 
a number of hearings where this is a reoccurring theme, where 
we have human rights abuses that continue to happen in China. 
My concern, specifically Mr. Chen with you being here today, is 
the repercussions that family members may face in China as a 
result of you being here.
    Do you think highlighting this issue is something that we 
need to continue to do and is it starting to make a difference?
    [The following testimony was delivered through an 
interpreter.]
    Mr. Chen. I believe that we still should continue to expose 
those inhumane acts by the Chinese Government. There is an old 
saying in China which is ``the heavens are watching over what 
we are doing here on earth.''
    The reason why I came here today is not just to appeal for 
my son because there are hundreds of thousands Chinese citizens 
who suffer from injustice and persecution under all kinds of 
excuses made by the Chinese authorities. Even worse, some of 
them have been deprived life. So I believe that the attention 
given by the outside world will make a great difference in such 
situations.
    I believe the sufferings our family has endured, thus far, 
is not that important compared to the larger goal of promoting 
the human rights movement in mainland China.
    Mr. Meadows. Thank you. And Dr. Marcus, when you went to 
visit, obviously you were forwarded at a number of different 
fronts in terms of continued access. Would you say that this 
would be indicative of a lower level person trying to implement 
directions from a higher authority or is it someone at a lower 
level just implementing their own sense of justice of lack 
thereof? I guess what I am getting at is do you think it is 
systemic throughout most of the top officials in the Chinese 
Government?
    Dr. Marcus. I think that what was interesting to me was 
that we got waved in, so somebody knew that we were coming. I 
have no idea. So I think probably both things were occurring. I 
think that he had probably gotten instructions and I think he 
was more than happy to comply with those instructions. I think 
he wanted to get us out of there as fast as he could. And I was 
fairly persistent. So it didn't work and it made him angry.
    Mr. Meadows. Thank you. Pastor Fu, good to see you again. 
Thank you for being a faithful voice for those that do not have 
a voice.
    Mr. Fu. Thank you.
    Mr. Meadows. One of the things that I just heard that this 
is a plight that many, I guess it was hundreds of thousands, of 
other Chinese people are experiencing. Would you concur with 
that? I mean it is very easy to take just a few people and say 
well, this is only happening in a few isolated situations. It 
is very different if it is indeed hundreds of thousands of 
people and I saw a few people nodding in the background that it 
was hundreds of thousands. So would you characterize that as 
being accurate?
    Mr. Fu. Absolutely. These 18 are just the tip of the 
iceberg, representative of hundreds of thousands. Just this 
year alone, we have seen several hundred, perhaps even 
thousands. We don't know their names, but we know some of their 
names. In my written testimony, I listed more than 130 who were 
just detained, arrested. Some were already been tried and 
sentenced for simply making a poster and asking the government 
officials to be transparent with their property; they posted a 
picture online and were arrested. And that is this year in the 
past few months. And already more than 120 Tibetans committed 
self-immolation, were killed because of the desperation.
    And already there are many, many others of the faith 
community, the Christian pastors, the Catholic bishops, the 
Uyghurs, and the Falun Gong practitioners. This year already 
reached the worst as I mentioned, since the massacre of 
Tiananmen Square in 1989.
    So this absolutely not just a local or just some short 
period of time persecution. It is systematic. It is Central 
Government orchestrated and it is still going on right now.
    Mr. Meadows. There is a danger from time to time when you 
address human rights violations of the nature perhaps that we 
are talking about today, that some of them may be more 
horrific, some perhaps less, but there is a danger when we do 
that, that the people of that particular country may see it as 
anger or animosity toward a people that are far away and yet 
would you say that the majority of the people that you know, 
that you have heard from--I heard it earlier from some of the 
young ladies that testified, that there is truly a love for 
their country of China, that this is not a ``We hate China'' 
mentality. That there is a love for their country, and what 
they want is justice within their own country, not to put away 
their native homelands to go somewhere else. Would you say that 
is across the board the predominant feeling?
    Mr. Fu. Absolutely that is the predominant feeling. The way 
that these hundreds of thousands prisoners of conscience handle 
their advocacy, their campaign for freedom, for transparency 
demonstrates itself that they are the true patriots. They are 
the love of the motherland of China. They are not anti-China or 
anti-Chinese people at all. They are actually just the 
opposite. They want to hold those abusers, the corrupted 
officials accountable which should be echoed, approved by the 
Chinese Central Government leaders. Yet, they were jailed for 
loving their country and I think really those are not only 
heroes for freedom for China, but also they are the campaigning 
essence for the defining of the 21st century.
    If China is free in the 21st century and becomes a 
democratic country, you essentially remove a threat, not only a 
regional threat as Chinese Communists have demonstrated to 
Taiwan, to Japan, to many neighbors of China, but also to the 
world. I think they are doing something more than for their own 
country, but also for the world.
    Mr. Meadows. I will finish up with this one question and I 
will throw it out to any of you that would care to comment 
because it may be something that you can't speak to and I guess 
it is more advice for me and some of my colleagues. How can we 
communicate most effectively a desire to address the human 
rights issues, but at the same time a love for the Chinese 
people and a respect for Chinese sovereignty at the same time? 
Because sometimes they get crossed.
    Dr. Marcus, any idea how to do that?
    Dr. Marcus. It is a toughy.
    Mr. Meadows. It is a toughy, okay. Well, if you have any 
thoughts, we will leave it at that. If you have any thoughts on 
how we can best do that, if you will just provide some written 
guidelines. I can tell you that perhaps those that are covering 
this here today will hear the heart of a father and a 
Congressman who wants to deal with some of the issues that we 
have heard, and yet at the same time has a mutual respect and 
admiration for the Chinese people. I believe in sovereignty. It 
is one of those things that is foundational to our American way 
of democracy that may be foreign to many others and so with 
that, Mr. Chairman, I will yield back.
    Mr. Smith. Thank you very much to my good friend and 
colleague. Let me just ask a few final questions and then 
anything you would like to add before we close.
    Dr. Marcus, and again, I appreciate your advocacy on behalf 
of Mr. Zhu. What is the status of his family? We have heard 
from Mr. Chen's family, the five daughters, obviously. You 
might want to speak about how his family and perhaps friends 
that you may have met are faring under this tremendous 
pressure.
    Secondly, Pastor Fu, you pointed out that the appeasement 
policy of harmony diplomacy adopted by some western societies 
toward totalitarianism is enabling the dictatorship to do what 
it wants because they know that we are very weak and seemingly 
unconcerned. Will say some of the right words, but what is 
behind it? If you could speak to that and also whether or not 
religious freedom is improving, is it the same as it was 
perhaps a year ago or two, which was awful, or is it getting 
worse?
    I would also ask Mr. Chen, you pointed out in your 
testimony that, and I think this bears repeating, without Chen 
Guangcheng's escape, Chen Kegui's case wouldn't exist. The 
continued imprisonment of Chen Kegui is punishment for Chen 
Guangcheng's escape. You also point out that ``In 2012, the 
Central Government promised that the persecution of Chen 
Guangcheng and his family,'' you, and your loved ones, ``by 
local officials would be investigated thoroughly and 
fundamental civil rights of Chen Guangcheng's family will be 
protected. However, this promise has not been fulfilled at this 
point. Even worse, the government has continued to attack, 
retaliate, and persecute Chen Guangcheng's family in his 
hometown in the form of imprisonment, surveillance, slandering, 
insulting, harassment, and beating.'' Has Ambassador Locke, 
Gary Locke, our U.S. Ambassador to China, met with you, talked 
to you, visited you and your family? Has he raised the issue 
face-to-face with his interlocutors, with the Foreign Ministry 
leaders and others in China?
    Dr. Marcus, perhaps you can begin.
    Dr. Marcus. Yes. As far as Zhu Yufu's family is concerned, 
there are a total of six in the family. It is a very large 
Chinese family. Two of his siblings are lying low. They are 
staying away from the government's eye. There is a brother and 
a sister. One sister has gone to Japan. She has a son there. 
Two have sought political asylum in the United States and have 
gotten it. His wife is working, has a menial job. She was a 
pharmacist, but she is no longer working in that capacity and I 
don't know if she lost the job or not, but she is now working 
for somebody doing something fairly menial even though she is 
trained a pharmacist. His daughter has a degree in art history 
and is credentialed to teach art, but cannot get a job because 
she is the daughter of a criminal. So she has gone back to 
school and she is now training in museumology. Their son has a 
degree in physics. He was imprisoned for a year because he 
barred the door to the police when they came after his father 
during one of the times his father was arrested. So he was 
imprisoned for a year, so he is now a criminal. So he can work, 
but not as a physicist.
    I would like to respond, I was a little flip to Mr. 
Meadows. It does occur to me that what I have heard when I have 
asked people about what seems to make a difference in China, 
why it is different is always the same answer, the Internet. 
And what I have also heard is that what the Chinese lack, the 
people lack is the truth because it is often spun by the 
government. The one thing that is very difficult to spin is 
direct social media and I had the opportunity of discussing 
this with a young woman who got an MBA at Stanford that I met 
in the Shanghai Airport. She said the major difference she has 
seen is because of the Internet. So I think the Internet is 
crucial. I think, if you will forgive me, I don't want to offer 
an opinion other than that. This is what I have heard. So I 
would say to you if there is one focus that keeps one away from 
the issues that you are talking about, it would be the 
Internet.
    And may I, business matter, offer my written testimony for 
the record.
    Mr. Smith. Without objection, your full testimony and that 
of all of our witnesses today will be made a part of the 
record.
    Dr. Marcus. And the only other thing I want to say is that 
we assume that the reason that Zhu Yufu has been changed to the 
psychiatry block is that it is in retaliation for the attention 
he has gotten. We don't know that. Thank you.
    Mr. Fu. Thank you, Mr. Chairman. Before I answer your 
question I want to say a few words to answer Congressman 
Meadows' previous question about sovereignty and raising human 
rights. You know, every time when the State Department of the 
U.S. issued an annual human rights report or USCIRF, issued the 
global religious persecution written report, the Chinese 
Government always issued a sort of angry denouncing statement 
by saying the standard is always set. This is the interference 
of the internal affairs.
    And the human rights and this fundamental freedom are not 
internal affairs. And to abuse a fellow human being and their 
dignity and depriving their basic freedoms is not internal 
affairs. And the fact that the Chinese Government now starts 
issuing human rights reports about the U.S. itself demonstrated 
that the issue of internal affairs is fair game, so they are 
interfering with the U.S. internal affairs to say the least.
    I think China is a signatory country for various 
international human rights covenants and the Chinese 
Constitution, for instance, Article 36 says for the citizens, 
basic freedom of religious belief should be guaranteed and 
China also signed in the Universal Declaration of Human Rights. 
I think the fellow Members of Congress, when you expressed the 
disapproval of the human rights abuses in China, it is not 
interference of internal affairs, but actually you want to help 
China to improve its international standing.
    So then I think to answer the first question about the 
appeasement charge, the appeasement diplomacy, I think the 
danger actually is when the brutal dictators start treating 
this as internal affairs by arbitrarily putting its citizens 
into detention center, imprisonment, without any due process, 
and when western democractic countries treat that as internal 
affairs, and when our own Secretary of State says that as human 
rights should not interfere with others so-called priority 
items, the security, the economic items, that sends a very----
    Mr. Smith. On that point, when Secretary of State Hillary 
Clinton, en route to Beijing, said that she would not allow 
human rights to interfere with global climate change and 
selling U.S. debt, is that you were referring to?
    Mr. Fu. Yes, that is what I refer to. I think that the 
leaders of democratic countries, when we made that kind of 
remarks, it is not only hurtful to those human rights 
campaigners, like those fathers of the five daughters, but also 
it really emboldens the dictators and the persecutors, and they 
take that as a green light to continue and increasing the 
persecution. It sends the wrong signal to the persecutors, that 
the democratic countries will not care as long as the trade 
continues, as long as the economic relationship is 
strengthened.
    In terms of religious freedom issues, certainly they have 
been worsening. I remembered it took more than a year for the 
current administration to even nominate the Ambassador-at-Large 
for the International Religious Freedom Office in the State 
Department. And unfortunately, after the current Ambassador-at-
Large, Ambassador Suzan Johnson Cook resigned the office, the 
position is still not filled up until today. So I think 
President Clinton would not do that, and President Jimmy Carter 
would not do that. Certainly President Bush, the two Bushes 
would not do that. I think this is very unfortunate. This is 
certainly sending the wrong signal at this critical time when 
the Chinese human rights and religious freedom reached its 
worst in 20 some years.
    Mr. Smith. Mr. Chen.
    [The following testimony was delivered through an 
interpreter.]
    Mr. Chen. Mr. Smith, regarding the question you just raised 
before with whether Ambassador Gary Locke raised the issue to 
local authorities, the answer is no. Regarding whether he has 
raised the issue of persecution of our family to local 
authorities, I am not aware of that.
    Mr. Smith. We will reiterate our request that he do so. We 
will write him today and write the Secretary of State, John 
Kerry, as well, asking them and conveying to them, not only 
your testimony, but all the testimonies. In my opinion, based 
on what occurred during the Chen Guangcheng process, when he 
was in-country still and then when he came here, those promises 
have gone unfulfilled. And so we will follow up on that, I can 
assure you.
    Pastor Fu?
    Mr. Fu. Yes, related to that, I have one final comment, 
actually. I remember last August, Mr. Chairman, yourself and 
Congressman Wolf and several other committee chairmen, as well 
as Speaker Boehner and Minority Leader Pelosi issued a joint 
letter to the Chinese President, Hu Jintao, then President, and 
the Chinese Premier, Wen Jiabao, to ask them to follow through 
what they promised to Mr. Chen Guangcheng and you actually also 
wrote a letter, along with Speaker Boehner and Leader Pelosi, 
to President Obama or Secretary John Kerry this year, to ask 
them to meet with Mr. Chen Guangcheng and other family members 
of those human rights campaigners in China such as Gao 
Zhisheng.
    I don't know. So far as far as I know, there is no positive 
response and even I think the leader of Freedon Now, Attorney 
Jared Genser, made a direct appeal to both the White House and 
through Washington Post opinion piece just last month to make 
that point that the quiet, so-called under the table diplomacy 
has failed, and failed miserably. And so it is time for the 
leader of our country, the President himself, to speak up to 
show that he is personally engaging by meeting, listening, and 
hearing directly from these daughters and the family members.
    Mr. Smith. Thank you. Is there anything else any of you 
would like to say before we conclude? Again, I want to thank 
you for your testimony, for your leadership. It is 
extraordinary and since the five daughters are still here, 
thank them again profusely for the love and devotion they have 
shown toward their fathers, their families, and for being 
willing to come here and share that with us on this 
subcommittee. The hearing is adjourned.
    [Whereupon, at 2:24 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
